                                                  .——-------


                                                         I
    Department of Health and Humm Services
    \
            OFFICE OF
       INSPECTOR GENERAL




      PATlENT ADVANCE DIRECTIVES:
    EARLY IMPLEMENTATION EXPERIENCE




                               o~   06-91-o1130
                 AUGUST 1993

L


                                                               .   —
                   EXECUTIVE                        SUMMARY

PURPOSE

To determine the extent of institutional compliance with the Omnibus Budget
Reconciliation Act of 1990 advance directive provisions one year after enactment and
determine the patients’ understanding of their rights as well as the information provided to
them under the law.

BACKGROUND

On November 5, 1990 the Congress enacted advance directive provisions as part of the
OBRA-90. These provisions, however, became effective December 1, 1991. The intent
of this law is to provide an opportunity for adult patients to express their desires about
medical treatment in a variety of settings. An additional intent is to educate the entire
population on advance directives such as living wills and the durable power of attorney for
health care. This law creates no new rights for patients, it simply requires health care
providers to inform individuals of any rights they have under State law, regarding patient
self-determination.

It is important to evaluate early implementation efforts due to the law’s potential effect on
all Americans health care decisions. For this evaluation, a facility level review was
undertaken at 72 facilities, in six States in a total of 12 counties. We interviewed staff
responsible for implementing the requirements of the law at each facility, obtained
required written materials and reviewed necessary documentation. Whhin these facilities,
 1553 charts were reviewed and 348 patients or family members were contacted for phone
interviews.

FINDINGS

MOST OF THE SAMPLE FACILITIES ARE COMPLYING WITH THE GENERAL
LEGISLATIVE REQUIWMENTS.

THE LACK OF CLEAR AND CONSISTENT DOCEMENTATION IN PATIENTS’
CHARTS INCREASES THE POSSIBILITY THAT THEIR TREATMENT WISHES
MAY NOT BE FOLLOWED.

�	      Many Sample Facilities had Missing Documentadon Regarding Whether or Not the
        Patient hud an Advance Directive.

 �	     Performance In Clearly and Consistency Documenting l%e Existence of an
        Advance Directive In lhe Chart Needs Improvement.

 �	     Only 60 Percent of the Pm”ents With Advance Directives had Copies of the
        Directive in Xheir Medical Chart.


                                                i




                                                                                 ———
TWENTY-ONE PERCENT OF THE PATIENTS IN HOSPITALS, NURSING
FACILITIES AND HOME HEALTH AGENCIES HAVE ADVANCE DIRECTIVES.

TWO-THIRDS OF THE INDIVIDUALS INTERVIEWED HAD SOME
UNDERSTANDING OF ADVANCE DIRECTWES.

�     We Found No Evidence of Patients Being Pressured To Have Advance Directives.

�	    Only 32 Percent of the Facilities Provided Additional Information In Materials To
      Promo~e Patient Understanding of and Comfort Wth Advance Directives.

�	    Receiving Information on Advance Directives Appeared To Have Some Impact On
      Patient Interest in Obtaining A Directive.


RECOMMENDATIONS

HCFA should develop and issue specific regulatory guidelines clarifying acceptable
documentation methods to assist providers in meeting the requirements of the Federal
Statute.

HCFA should encourage the Joint Co-ion         for Accre~~tion of Hc@h
Organizations (JCAHO) to examine if the chart for =ch patient documents whether
or not the patient has an advance directhe, in addhion to the existiig JCAHO review
item for advance d-ives.

HCFA, along with other appropriate Health and Human Service departmental
offices, should provide leadership to develop a coordinated plan for educating the
general public on advance directives.


AGENCY COMMENTS

We solicited and received comments from the Health Care Financing Administration
(HCFA) on our draft report.

The HCFA did not concur with our recommendation regarding additional documentation
guidelines in the regulations, believing that such changes would be overly prescriptive.
However, because technical questions still remain for providers regardiig compliance with
the law we continue to believe that additional guidance would be helpful to providers.
This guidance need not be overly prescriptive.

The HCFA generally concurred with our recommendation concerning the JCAHO review
of medical record documentation but suggested that JCAHO’S current process, which
determines if a copy of the advance directive is present in a sample of records, addresses
our concerns. As a result of this comment, we refined our second recommendation to


                                              ii
                        TABLE            OF CONTENTS

                                                                                                                   . .        i
EXECU~S~Yc””o”.”.                                  . . . . . . . . . . . . . . . . . . . . . . . . .                          1

                                                                                                       . . . . . 1

INTRODUCflON         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                                A

FINDINGS
    .......................................
                                                                                                                         .U
                                                                                          .   .    .   .   .   .   .




    FAC~Ty      CO~H~CE             WITH LEGISM~E                REQ~S                        . . . . . . . 67
                                                                                                                                  I




    CIWR’rDoC~AmoN. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. .11
    pA~~S-~V~CED~C~~.                                         . . . . . . . . . . . . . . . . . . . .
                                                                                                                              12
     ~~T~~GOF~V~CED~C~.                                               . . . . . . . . . . . . . . . . .

                                                                                                               . ..16
 ~CO~A~ONS...........                                . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                   ..18
 AGENCYCO~S~OIG~~NSE                                         . . . . . . . . . . . . . . . . . . . .
                                                                                              . . . . . . 21
 ENDNO~         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

  Appendices
                                                                                                  . . . . . . A-1
  ARe~ssion       Results ..,....         . . . . . . . . . . . . . . . . . . . . . . . . .
                                                                                                                       . .B-l
  B: Weightd     adUnweightdCM              DataRePofiedhText             . . . . . . . . . . . . . .
                                                                                           . . . . . . . .C-l
  C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .




                                                                                                                       ——             ——
                            INTRODUCTION

PURPOSE

To determine the extent of institutional compliance with the Omnibus Budget
Reconciliation Act of 1990 advance directive provisions one year after enactment and
determine the patients’ understanding of their rights as well as the information provided to
them under the law.


BACKGROUND

On November 5, 1990 the Congress enacted advance directives provisions as part of
OBIL4 19901. The intent of this portion of the law is to provide an opportunity for adult
patients to express their desires about medical treatment in a variety of settingsz. An
additional intent is to educate the entire population on advance directives such as living
wills and the duxable power of attorney for health care. These provisions do not create
any new rights for patients. The provisions simply require health care providers to inform
individuals of any rights they now have under State law, regarding patient self-
determination.

Senators Danforth and Moynihan introduced the provisions as the Patient Self
Determination Act in October of 1989, to afford ‘individuals the opportunity to participate
in medical decisions affecting the condition and length of their lives4. Such an Act W=
needed to offset an imbalance in the relationship between health care consumers and
providers. Senator Danforth perceived that the caring component was beiig left out of
medicine and patient rights were being trampled uponb.

Because of the potential impact of these provisions on all Americans, it was important to
determine if the spirit and letter of this law were being met. A facility level miew of the
requirements was necessary to detenrd.ne if the provisions wem being implemented
appropriately. It was also crucial to determine if patients were being educated and
allowed to participate in the health care decision process, or if additional paperwork had
simply been added to the administrative process.


The Provisions

The advance directive provisions are contained in the Omnibus Budget Reconciliation Act
of 1990. This section of the law became effective December 1, 1991, approximately one
year after enactment, in all f~y States. Dutig the interim year, health care providers
participating in the Me&aid/Medicare programs were to develop both written policies and
procedures and patient materials addressing dtives     under State law. Participating
health care providers covered by these provisions include, but are not limited to,


                                               1
hospitals, nursing homes and home health care agencies. The materials develop~ ~ to
be provided to all adults upon admission to a facility or in advance of beginning care.
Policies and procedures, as well as materials provided, must ensure compliance with State
legislation and/or court opinions addressing patient directives. A description of Snte law
must be included in information provided to all adult patients. Finally, the patient’s
record must state whether he/she repons having executed an advance directive’.

While the advance directive provisions require health care providers to make this
information available to all adult patients, certain activities are not required. The
provisions do not require patients to complete any form of advance directive. In fact, the
provisions expressly forbid requiring an advance directive as a requisite for treatment. In
addition, the provisions do not override any State law allowing a provider to object to the
implementation of an advance directive on the basis of conscience. However, in such a
case policies on this topic should be included in the information provided upon admission.


Evolution of the Advance Directive Provisions

The advance directive provisions evolved both from case law and medico/legal
considerations. The final legal decision drawing attention to the need to consider patient’s
wishes in health m decision making was provided in the Supreme Court ruling in the
Cruzan case*. This case recognized a patient’s right to accept or refuse treatment and
endorsed the withbwal of life support and the withholding of medical treatment when a
patient’s wishes were known9’10   . This ruling helped focus the need to inform patients of
their rights to state treatment preferences regarding life and death matters before
undergoing medical treatment.

The evolution of me&co/legal considerations over the past ftieen years also encouraged
greater patient involvement in their medical care. These considerations took three forms:

       1.	     Do not resuscitate order (DNR), a written order documented in the patient’s
               medical chart to allow patients or family members to choose to forego
               further medkxd intervention in case of an event such as a cardiac arrest.
       2.	     LNing will, a document containing written instmctions pertaining to an
               individual’s treatment.
       3.	     Durable power of attorney for health care, empowers an individual to
               appoint an agent or surrogate to decide for them should they become
               incompetent or unconscious.

Due to the patient’s lack of knowledge about these devices, communication between the
patient and physician had not increased. In addition, despite the frequent use of DNR
orders, they often were not discussed with the patient or even the family. Studies found
patients were only asked their preference for life prolonging treatment between 14 and 22
                           while family members were asked 33 to 86 percent of the
percent of the time*1*12s13,
time14’*s’lb.Further studies indicated the agreement between a potential proxy and
the patient on preferences for life sustaining treatments ranged between 53 and 90 percent


                                               2
for a family member17118,and between 38 and 89 percent for the patient’s
ph ysician19’20.Thus, the literature indicates the wishes of the patient were frequently
not considered before placing an order to forgo resuscitation. This reinforced the n=d for
the advance directive provisions, which include patient education about advance directives
as an important component.


Public and Institutional Response to Advance Directives.

Research on patients’ interests in advanced care directives supports the need for the
advance directive provisions. Studies have found between 89 and 9321percent of
individuals surveyed desire at least one form of advance directive. However, two surveys
indicate only 1422to 18D percent of individuals have either discussed their desires with
their physicians or put them in writing,

In the realm of hospital policies on advance directives, a 1988 study of randomly selected
hospitals noted that 67 percent of the nxpondents reported having a formal policy
regarding advance dmtives 24. However, of these hospitals, only 63X percent reported
a policy r&@ring the patient to notify the physician if they had an advance directive.
Oniy four percent of the hospitals had a policy of asking all patients whether they had
ever completed an advance directive*.


Concerns Regarding the Use of Advance Directives.         .

One concern addressed in the literature is the possibility that the advance directive
provisions will have little impact. A study of New York State’s legislation requiring a
patient discussion before issuing DNR orders found no signifkant change in the number of
decisions being made by patients. Both before and after the legislation, 80% of cases
involving DNR orders were based on decisions made by family members27.

Another concern relating to the impact of the advance dmtive provisions is whether
patients will fully understand the information contained in materials provided, as well as
the importance of the information. Studies show many existing consent forms require
reading skills at the advanced college leve12aand even well-educated individuals often
fmd it dilllcult to understand terms explained in health care plans to which they
subscribe29. Concern also exists that patients may view the information as just another
form and choose not to read i~”. Another risk is that patients may be incorrectly
informed of their rights due to discrepancies between State statutes and legal fmdings3].
Additional concerns surround the issue of patients making involuntmy or unreasoned
decisions due to the initiation of the informational process upon admission, frequently a
time of turmoi332. Finally, concern is expressed that facilities will encourage
disadvantaged patients to sign a dtitive for financial masons, to limit costs of potential
extended titmen?3Y.




                                              3

These concerns demonstrate a need to determine both the administrative compliance level,
as well as compliance related to the level of patient understanding of advance directives.
Researchers believe relying solely on a simple patient chart audit to determine compliance
with the requirements of the provisions could be misleading. Such reviews do not
measure patients’ understanding of their rights or the lack of a requirement to have a
directive to obtain medical treatment3sJb.


METHODOLOGY

This inspection reviewed both institutional compliance with the requirements of the
advance directive provisions, and patient understanding of the information presented to
him/her at time of admission or commencement of services. Institutional compliance was
divided into two components, administrative compliance and chart documentation. Since
the advance directive provisions were Federal in nature and applied to all
Medicaid/Medicare facilities, all States and all hospitals, nursing facilities and home health
agencies were initially included in our sample. Individuals who received care within each
of these settings were also interviewed to ascertain their understanding of the advance care
directive information they received.

While the content of State laws was not reviewed in deptl?’, consideration was given to
the type of advance directives allowed in the sample State#a. Legislation in States
generally allowed for the following advance directive possibilities:

               Living Wills only (9 States)

       ;:      Durable Power of Attorney for Health Care only (6 States)

       3.      Living Will and Durable Power of Attorney for Health Care (33 States)


A four stage, stmtifled random sample was utilized in this study. The initial stratifkation

was based on the type of advance directive(s) legislation present in the State. Two States

were randomly selected from each group. The six sample States were, Arizona, Florida,
Maryland, Massachusetts, Michigan and Washington. After sample States were selected,
two counties/county units were randomly selected fmm each State with probability
proportionate to size. Size was defined as the total number of Medicam/Nledicaid
participating hospitals, nursing facilities and home health agencies in the county unit.
County unit was deftned as two or more contiguous counties in which one or more has
fewer than the required number (two), of at least one type of organization included in the
sample. Within these county units, two of each type of provider were randomly selected
and included in the sample. Within each facility, 25 charts were randomly selected for
review from all the admissions for the period, March 1 to April 30, 1992. For the
facilities with fewer than 25 admissions, all admissions during the sixty day period were
reviewed. Finally, five charts of living patients were randomly selected and contacted for
personal conversations regarding their understanding of the information they received on
 advance directives. If five or fewer patients we~ admitted during the time period, all
 living patients were contacted and interviewed. Data were collected between May 11 and
June 4, 1992.


                                               4
                   I Number of I Number of                Number of   1         Number of
                      Counties    Facilities                Charts         Patient/Individuals
                       Visited   Reviewed                 Reviewed             Interviewed
Hospital                 12          24                      591                    120
Nursing Facility”        12          24                      424                    113
Home Health Agency       12          24               t
                                                             538                   115
~TOTAL                  I     12      I      72       I     1553       I           348

The data collected pertained to the presence or absence of specific materials and policies
within the organization, the documentation of speciilc interactions and educational
activities in the patient chart and elsewhere, and the patient understanding of information
provided based on phone conversations with patients and other relevant individuals. In an
effofl to understand facility/agency outcomes, information was also obtained regarding
difficulties facilities encountered in implementing the requirements of the advance
directive provisions.

Information reported for the facilities and patient understanding are based on the sample
data. Information presented on data from the charts is weighted and projected to the
universe of all Medicaid/Medicare participating hospitals, nursing facilities and home
health agencies. ‘l’his projection represents 6.8 million charts. While some of the
projections have poor precision due to the limited number of facilities and the four stage
sampling technique, it is still felt that they represent a reasonable estimate of initial
implementation effom. Appendix B presents the unweighed and weighted sample data
for the data presented on patient charts. Regression analysis was also undertaken on the
sample data, with a cursory discussion included in the ~rt        and a more complete
discussion of the regression results in Appendix A.

We conducted our review according to the Quality Standurds for Inspections issued by the
President’s Council on Integrity and Efficiency.




                                              5

                                      FINDINGS

MOST OF THE SAMPLE FACILITIES ARE COMPLYING WITH THE GENERAL
LEGISLATIVE REQ~TS.


                Measures of Compliance With the Advance Directive Provisions
                     Used to Form The Legislative Requirements Index*.

          ~o                 The facility has developed written policies and procedures
                             explaining advance directives and the hospital’s requhvments
                             pertaining to them.

           69      �         The facility has developed writien materials regarding advance
                             directives and provides them to each adult patient upon
                             admission or commencing services (both must be answered yes
                             to obtain credit for this item.)

          x.	                Materials provided to the patient clearly state that a patient
                             does not require an advance directive to receive treatment.

           69       �        Materials provided to the patient include a written explanation
                             of the law pertaining to advance directives in that State.

           67       �         The facility has provided staff education on the advance
                              directive provisions, and has some form of documentation
                              indicating education has been provided (both must be answered
                              yes to obtain credh for this item.)

          fio                 The facility has planned or provided community education on
                              advance directives.
      .     ---- -.–J ..- ..-i!--               ,.- .....    ..   .. . . .....—-—
   numoefs presenteu m uaucs represent number 01 facmucs mccung uus fequmemem
                                                                               --—UUL0?
                                                                                -----   --         ----
                                                                                             a total ot /“2


                                               Figure 1

Eighty-seven percent of the facilities demonstrate compliance in five or more of the index
areas, and all facilities demonstrated compliance in at least four of the index areas.
Forty-three percent of the facilities demonstrated 100 percent compliance in the legislative
requirements index. When examining facility type, it is noted that hospitals have the
highest mean index, 5.5, nursing facilities have a mean index of 5.3 and home health
agencies scored the lowest, with 5.0 on the six point index. This demonstrates very little
overall difference between facility types in complying with the gened legislative
requirements. The index total was derived by assigning one point to each of the six
legislative requirements listed in figure one.39’a


                                                   6
The Legislative Requirement Most Frequently Umnet Was The Facility Responsibility
To Provide Community Education.

Twenty-three of the 72 facilities in the sample, or 32 percent, had not planned or provided
community education on the advance directive provisions. Home health agencies were the
type of facility which most frequently had not provided community education. Twelve
home health agencies, or half of the home health sample, had not provided this sexvice.

While many facilities had not provided community education, half of the seventy-two
facility contacts stated more information needs to be given to the pubIic. Such public
information would increase awareness of advance directives before individuals became ill
and improve understanding of the terms when directives were explained. Generally,
contacts at the facilities called for public service announcements on this topic and said
government agencies, such as HCFA and Social Security, should include information
regarding the topic with current mailings.


THE LACK OF CLEAR AND CONSISTENT DOCUMENTATION IN PATIENT
CHARTS INCREASES THE POSSHKLITY THEIR TREATMENT WISHES MAY
NOT BE FOLLOWED

Many Sample Facilities Had Missing Documentation Regardkg Whether Or Not The
Patient Had An Advance Directive.

Only 19 facilities, or 26 percent of the sample, had clear documentation stating whether
the patient did or did not have an advance dmtive in 100 percent of the medical rezords
reviewed. By contrast, in 15 percent of facilities less than half of the charts were clearly
documented, including one of four nursing homes and one of five home health agencies.

          PERCENTAGE OF CHARTS WITH DOCUMENTATION PRESENT:
                             BY FACILITY
                  Below 50 percent       50-75 percent        75-99 Percent        100 Percent
                    # of       % of      #of        % of      #of        % of      #of      % Row
                  Facilities   Total   Facilities   Total   Facilities   Total   Facilities Total
 All Facilities       11       15.3        11       15.3       31        43.0       19      26.4
 Hospitals
                      o          0         5        20.8        14       58.3       5       20.8

 Nursing
                      6        25.0        3        12.5        7        29.2       8       33.3
 Facilities
 Home
 Health                5       20.8        3         12.5       10       41.6       6       25.0
 Agencies




                                                    7





                                                                                                 .—
While three facilities had no documentation in the medical chart as to whether a patient
had an advance directive, two of these facilities did have documentation in the patient’s
financial folder, located in the business office. Additionally, some facilities would clearly
document that patients had received information regarding advance directives, but would
not consistently document whether or not the individual had a directive.

A statistical examination of the percent of charts with documentation present provided
only limited insight (explaining 13.5 percent of the variation among facilities) into which
factors affect the presence of clear chart documentation in each facility. The three factors
having an impact on explaining the percentages of charts with documentation in each
facility were:

       �       The lack of staff education or documentation of staff education on the topic
       �       The provision of staff education after the provisions were implemented
       �       Status as a for-profit organization

Facilities providing staff education on the topic tier, rather than before, implementation
of the advance directive provisions had a lower percentage of charts with documentation
present. This supports the effectiveness of employee education and its impact on
improving employee awareness and attention to this new procedure, supporting the need
for the education requirement. The effect of the for-profit variable was positive, when
compared to not-for-prufit facilities, indicating a higher frequency of documentation in
for-profit agencies. This finding could indicate for-profit organizations may be members
of a chain and thus more likely to have received company-wide policies and materials that
could be easily disseminated.

After accounting for the States included in the sample, two additional variables, location
in Florida and whether the facility was a nursing home, had a signifkant negative impact
on the percent of charts with documentation present. By controlling for the individual
States in the regression analysis, the variables examined explained 23.8 percent of the
variation in documentation between the facilities. There was no signifkant effect of
whether the facility was a hospital, or home health agency, location in one of the other
sample States, or from having a higher score on the legislative index in either analysis.
For a further discussion of the statistical findings, see Appendix A.


In Sample Facilities, Information On Advance Directives Was Often Difficult To
X.mate Due To A Lack of Standardized Methods of Documenting.

Standardized methods of presenting chart documentation, within a facility, regarding
advance directives may be an important issue in assuring the ability to locate information
stating whether or not the patient has a directive. In an emergency situation, the ability to
quickly locate this information would be important, as it could lead to dfierent treatment
approaches. When examining documentation methods it was noted that sample facilities
documented in a variety of ways. When documenting in the chart, facilities generally
used a standard form (either computer generated or photocopied), a written note in the


                                               8
chart (generally in the social service section or nurses notes), or a standardized admissions
assessment form utilized by the State in nursing facilities. Difficulties sometimes ~ose in
locating the documentation since methods were not always consistent within the facility.
In addition, several facilities may have kept documentation on a standardized form in the
business office exclusively, or in the business office with a note appearing in the patient’s
chart. Many facilities had utilized various methods of documentation and had moved
toward a more standardized facility format during the early months of the implementation.


Performance In Clearly And Consistently Documenting In The Chart Needs
Improvement.

           STATUS OF DOCUMENTATION IN PATEiNT’S MEDICAL RECORD                              11



a
                                                                                                J



Facility
             ‘
             Documentation   No Chart    Documentation “Unknown” “Comprehension
Type            in Chart   Documentation   Elsewhere     Noted     Poor” Noted
All Types        80.5 %          14.0%             1.7%          3.3%             .2%

Hospitals        86.2%           9.4%                o           4.4%               o

Nursing
                 46.0%           25.5%             26.7%           o             1.8%

Facilities

Home

                 68.0%           31.5%               o           .03%             .5%

Health
=           “


While the majority of chaxts had clear documentation stating “yes” the patient has an
advance directive or “no” the patient does not have an advance directive, many charts
lacked any documentation or contained ambiguous statements. In addition, some ch~s
contained uncompleted directive forms, or only documentation that information on
advance directives had been provided to the patient.

When examining provider types and their documentation efforts, some dflerences become
apparent. Almost one-thid of the charts in home health agencies and one-fourth in
nursing facilities had no clear documentation indicating whether the patient dld or did not
have a directive. Additionally, about one-fourth of the charts in nursing facilities had
documentation regarding the status of the patient’s pmfenmce for a directive, but the
documentation was in a location that was inaccessible after working hours. While this
indicates the agencies have made some effort to document, documentation problems create
situations where the wishes of the patient may not be followed, due to either the lack of or
inaccessibility of information.

Pregnant women were the largest category of patients in the sample lacking documentation
of directives in their medical charts. Of the 116 women in the sample with dmgnoses of
pmgn~cy or nAated to pregnancy, 41 had no documentation in the~ chart and 8 had
notations stating “unknown” regardiig the presence of an advance directive. Two
facilities stated they did not give information to pregnant women, since provisions of
advance directives were not applicable while a woman was pregnant. Other facilities


                                               9
stated information was provided to pregnant women, but they could be missed, since they
were often admitted through the emergency room or directly to the floor. Although many
hospitals had a policy of following up, to determine if the patient had a directive, the
information in the chart was often not updated to reflect the follow-up.

Many State laws indicate advance directives do not apply during a woman’s pregnancy, if
it appears that her baby may be able to go full term. However, the need to ~form
pregnant women of advance directives is still important. If a pregnant woman, not
informed of her right to an advance directive, should experience a tragic outcome, her
wishes regarding continued life support, after the delivery of the baby, would be
unknown. This could be equivalent to denying the pregnant woman an opportunity to
make decisions regarding her medical treatment, which was the intent of the provisions.

Another group of patients, whose charts frequently lacked clear documentation regarding
advance directives, were those patients who were confused or very ill and were not
accompanied by a friend or family member during admission. Without such assistance or
counsel, it was dfilcult or impossible for the facility to obtain accurate information on
patient’s advance directive preferences.

In telephone interviews with individuals whose charts had been reviewed, several said they
had a directive while the information in the chart did not indicate this. Thirteen
individuals whose medkal charts lacked any documentation, stated they had an advance
directive prior to being admitted for cam. In addition, 11 individuals with documentation
that they did not have an advance directive, stated they did have one prior to being
admitted. While there is no way of confirming this information, if true, it would be
difficult to comply with these individuals’ treatment wishes, due to either the lack or
inaccumcy of documentation in the chart.


problems In Clearly Documenting patients’      Charts May Result From the Lack of
Guidelines on Acceptable Documentation.

All types of facilities included in the sample had some charts that did not clearly specify
“yes” the patient has an advance directive or “no” the patient does not have an advance
d~tive.      Ambiguous documentation and documentation located outside of the patient’s
chart accounted for approximately five percent of the documentation efforts. When
examining documentation by facility type, about one-fourth of nursing facility charts had
documentation located outside of the charts and approximately four-and-a-half percent of
hospital charts had “unknown” specifkd. In addhion, a number of the over nine percent
of hospital charts lacking any documentation were charts of pregnant women. In some
facilities, persomel stated pregnant women were not asked whether they had a directive,
as they understood the state law to spec@ directives were not applicable when a woman
was pregnant. These results appear to indkate facilities are unsure of exactly what
constitutes appropriate documentation of whether the patient does or does not have a
directive.



                                              10

Comments made by sample facilities suppoxt this fmding4*. One facility stated that the
lack of specific documentation guidelines was a problem. In addition, personnel in many
facilities inquired about the appropriateness of their documentation efforts during the chart
review undertaken for the study. Some facilities mentioned problems clearly documenting
the required information due to the patient’s condition, admission of patients through the
emergency room, clinics or after hours, and the dfilculty in obtaining information for day
surgexy and short stay patients. Finally, some facilities mentioned the difllculty of
obtaining clear information on advance directive preferences from confused or disoriented
patients. In many of these cases, “u~own” or “comprehension poor” were noted.


Only 60 Percent Of The Patients With Advance Directives Had Copies Of The
Directive In Their Medical Chart.

Of the charts with documentation (either in the chart or in the financial folder) indicating
the patient has an advance directive, 57.5% have a copy of the directive in the chart.
Approximately two-and-a-half percent of the charts with copies of advance directives did
not have documentation in the chart stating the patient had a directive. A note was
present in eight percent of the charts indicating where a copy of the advance directive
could be found and 31.8 percent of the charts had neither a copy of the directive nor a
note stating the location.

The lack of copies of advance directives in patient charts is acknowledged as a problem by
many facilities. During discussions regarding facilities’ problems or dfi~culties in
implementing the advance directive provisions, 12 specifkd the difficulty in obtaining
copies of the directive for placement in the chart. Problems in obtaining directives mnged
from patients being requested to provide a copy of their directive but not doing so,
patients not being able to obtain a copy due to lack of mobility and not wishing to give an
original to the provider, patients not being aware that they should bring a copy of a
directive to a facility upon commencing care, relatives having to be responsible for
obtaining a copy or papers having to be sent out of State in order to obtain a copy of a
directive from a relative.


TWENTY-ONE PERCENT OF PATIENTS RECEIVING CARE FROM
HOSP~AI& NURSING FACILITIES, AND HOME HEALTH AGENCIES HAVE
ADVANCE DIRECTIVES.
                                                                                                7
                       PATIENTS WITH ADVANCE DIRECTIVES*
                     Total With Directives Average Age (sample) Female               Male
 All facilities             21.2%                  73            55.5%              42.7%
 Hospital                    18.2%                 63            48.3%              49.5 %
  Nursing Facility           47.7%                 79            58.9%              40.2%
  Home Health                25.1%                 76            77.1%              22.3%
                                                                                                i
 *--numbers may not sum    to 100% due to mlssmg sex and age mformauon


                                               11
Examination of the data indicates that nursing facility and female patients are more likely
to have advance directives. The fact that a greater percentage of nursing facility patients
have a directive is consistent with the common view that advance directives are documents
that should be considered by people who may be approaching the end of their life.

Examination of individuals from the sample with directives, by age group and diagnoses,
provided some additional insight into the public perception of advance directives. Nine
percent of the patients under age 30, 11 percent of the patients between the ages of 36 and
45, and 20 percent of the patients between the ages 46 and 55 had a directive. The
percentages continue to increase with age, with 34.7 percent of individuals over the age of
85 having a directive. The diagnoses among individuals having a directive included 10
percent with cancer, eight percent with a diagnosis of broken hip, seven percent with
stroke and five percent having a diagnosis of congestive heart failure. While none of
these diagnoses are exclusively related to the elderly, more older people tend to have these
medical conditions. In addition, each of these has a higher likelihood of mortality than
the other diagnoses in the sample.

The sample findings indicate the public tends to perceive advance directives as only being
appropriate for the very old and very ill. This is further supported by comments made by
interviewed individuals such as, “I was only having a baby, ” or “I am too young to think
about that. ” Unfortunately, many of the legal cases which brought this issue to the
attention of the public involved young pemple. These individuals met with tragic
experiences resulting in the extended use of life-sustaining measures, beyond what their
family members felt the individual would have wanted. These findings also support the
need to provide public education on the topic of advance directives.


TWO THIRDS OF THE INDIVIDUALS INTERVDIWED HAD SOME
UNDERSTANDING OF ADVANCE DIRECTIVES.


      Percent of Individuals Interviewed With Understandimz of Advance Directives

 E@w!L_Jl Patient


 a~
                                           Relative    I Relevant Individual       Overall
                                                                               t
 All Types                  63%              74%                 89%               67.5 %
 Hospital                   61%              77%            (not applicable)        64%
  Nursing Facility          71%              71%                 83%                72%
  Home Health               60%              77%                 100%               6’7%

Interviews were held with 348 individuals whose charts were randomly selected from each
facility’s original sample, Of the individuals interviewed, 130 were former patients, 209
were family members, and nine were friends, caretakers or lawyers. The interviews
indicated that 235 of the individuals had some understanding of advance directives or
related terms such as, living will, durable power of attorney for health care, proxy,


                                              12
surrogate or patient advocate. Understanding was judged to be present if the individual
could either give at least a simple definition of the term advance directive, living will or
durable power of attorney, or if they volunteered information regarding their previous
familiarity or experience with an advance directive.

It is noteworthy that patients as a group included the smallest percentage of respondents
with an understanding of advance directives. Only nursing home patients demonstrated
understanding equivalent to that of family members. Facilities reported patient
understanding often is very poor upon admission, due to the anxiety surrounding their
health condition and the number of papers presented to them. Reinforcing this point is the
fact that 10 percent of patients who could not recall what an advance directive was
mentioned they were too ill, too upset or were bombarded by too many papers at
admission. Furthermore, 12 percent of individuals stated they did not remember receiving
information on the topic, and 16 percent stated they did not receive information on
advance directives upon admission. This supports the suggestion of 17 facilities that the
provision of information on advance directives should begin before the patient is admitted
for care.

Nursing facility patients had the highest understanding of advance directives among patient
respondents. This might be a function of the generally long stays associated with nursing
facilities which allow more time to explain and re-explain advance directives as necessary.
It may also indicate that the average population in nursing homes, frail elderly people,
have considered this topic prior to arriving at the nursing facility. Also, many individuals
receiving care from a nursing facility may demonstrate greater knowledge and education
on the topic because they view it as more relevant to their lives.

Of the individuals with understanding of advance directives, 186 could provide at least a
simple deftition of either “living will” or “durable power of attorney for health care”
without prompting. A larger percentage recalled “living will. ” For example, 77 percent
correctly defined a living will, while 55 percent defined a durable power of attorney for
health care. Four percent of individuals provided an incorrect det”tition, although they
thought they understood the term, and two percent of the individuals stated they had an
advance directive, when they actually had a general or durable power of attorney with no
health specifkations.

Six facilities specifka.lly mentioned the problem of patient difilculty in understanding the
information due to the different terminology used, or the similarity between advance
directive terms and other legal terms. Facilities also noted some patients confuse living
wills with wills and confuse durable power of attorney for health care with a durable
power of attorney related to financial areas. This concern was reinforced by some
respondents who when asked to define the terms gave the deftition of a will, or dumble
power of attorney for financial affairs. Eight facilities suggestcxl using uniform language
and simpler terms in an effort to encourage greater understanding of advance dmtives.

The need for a public information campaign by the Secretary of Health and Human
Semites, as called for in the legislation, was supported by comments made by facilities.


                                               13
Many facilities cited the need to provide a greater opportunity for public education on the
topic to improve patient understanding of advance directives. The.t also indicated that
education should be provided at a variety of levels. Facilities cited early education in
schools, providing information through large community and government organizations
and using televised public service announcements as ways of reaching more people.
Additionally, ten facilities felt physicians should be more involved in discussing this area,
as they are generally the patient’s initial contact with the health system.


We Found No Evidence Of Patients Being Pressured To Have Advance Directives.

A concern voiced by Congress and others before the advanced directive provisions were
enacted was that patients would either feel that they were required to have a directive to
obtain treatment or this would be subtly communicated to patients. In addition, there was
concern that poorer or more disadvantaged patients might be encouraged to have a
directive. Two steps were taken to examine this concern. First, we reviewed materials
provided to the patient by each facility to see if a clear statement that a directive was not
required was present. Second, in interviewing patients and family members we
specifically asked if they had to have a directive to receive treatment. Our review showed
78 percent of the materials clearly stated that a patient was not required to have an
advance directive to receive treatment. Similarly, our interviews detected only one person
who felt they might have been required to have a directive to receive treatment. Finally,
a review of the data indicated that Medicaid patients, genemlly poorer and more
disadvantaged, consistently were the least likely to have a directive. ‘Ilk would indicate
they were not more likely to be encouraged to have a directive when compared to other
groups.


Only 32 Percent of the Facilities Provided Additional Information ItI Materials To
Promote Patient Understanding Of And Comfort With Advance Directives.

An examination of facility efforts to alleviate the concern that patients might feel
pressured to have an advance directive was also undertaken. This examination imokd
reviewing the content of advance directive materials provided to patients upon admission.
To determine if facilities were clarifying that advance directives were not required in
order to receive care, could be revoked at any time and should be carefully considenxi,
we developed an index to examine facility efforts in communicating this information.
This index was called the quality index. The quality index contained three items and was
used to check whether materials provided to patients:

       1.	     Mention the need to dkcuss treatment preferences w~th family and friends
               in case they should have to make medical decisions for the patient;
       2.      State the patient has a right to revoke the advance directive at any time; and
       3.	     Advises patients that the facility has blank advance dmtive forms for their
               use upon request.



                                               14
The data from sample facilities indicates there is a need to improve facility performance in
providing information to increase patients’ understanding and level of comfort with
advance directives. For example, 22 percent of the facilities met none or only one of the
three items and only 32 percent of facilities met all three indices. Once again, including
these items in materials could increase patient understanding of advance directives, an area
which facilities noted as needing improvement.


         Percentage of Facilities Including Quality Information in Patient Materials
 Facilities                               Quality Index Scores for Facilities
                                 Zero            One             Two             Three
 All Types                      4.1%             18%            45.8%            31.9%
 Hospitals                         o           20.8%            54.1 %           25.0%
 Nursing Facilities             4.1%            16.6%           37.5 %           41.6%
 Home Health Agencies            8.3%           16.6%           45.8%            29.1 %
                                                                                              II


Receiving Information On Advance Directives Appeared To Have Some Impact On
Patients’ Interest In Obtaining A Directive.

Being informed of the right to have an advance directive, and receiving information on the
topic, did appear to influence some of the patients who were interviewed. Seventy-three,
or 20.9 percent, of the individuals interviewed said they would consider getting a directive
after hearing about them. In addition, 14 (or four percent of the individuals) actually
executed a dinxtive after nxeiving treatment.

This finding underscores the importance of discussing advance directives with patients
before they become ill. The appropriate place to begin this process may be in the
physician’s oftlce, since they are often the initial patient contact with the health care
system. Once again, this lends support to the suggestion of ten facilities, that physicians
become more involved in discussing advance directives with patients. Further, this
finding also supports the need to provide general public education on the topic, to
encourage people to both think about and discuss advance directives with relatives or
friends.




                                              15

                     RECOMMENDATIONS

While the majority of facilities reviewed have met many of the requirements of the
advance directive provisions within the first five months of implementation, some areas of
concern exist regarding:

       �      patient knowledge and understanding of advance directives
       �      facilities documentation of advance directives and
       �      the presence of the directive in the chart.

Because advance directives are a complicated topic not falling neatly into one arena, a
coordinated effort should be considered in addressing these concerns. This effort should
involve the State agencies and intermediaries involved with the Medicaid and Medicare
progmm, as well as involved outside agencies. Assistance for facilities participating in the
Medicaid or Medicare programs should also be available from the HCFA, the agency
writing the Federal rules and regulations pertaining to the advance directive provisions.
This would increase the potential for consistent interpretation of the requirements.

The coordinated effort should also include the Joint Commission for Accreditation of
Health Organizations (JCAHO). Much of the determination of compliance with the
provisions will be left to the JCAHO in facilities they accredit. While the JCAHO has
specific review items pertaining to the provisions, including the presence of a dmtive in
the chart, they do not include simple documentation of whether the patient has a directive.
Since findings of this inspection indicate that 11 percent of patients with advance
directives did not have this documented in their chart, and 20 percent of charts lacked
CIW documentation, support is present for a geneml documentation item. The lack of
such documentation weakens the ability to both know and comply with patient wishes.

To assure patient participation in some of the most delicate issues confronted in health
care, we make the following recommendations:

The HCFA should develop and issue specillc regulatory guidelines clarifying
acceptable documentation methods to assist providers in meeting the requirements of
the Federal Statute. The guidelines could be incorporated in the Final Regulations
which are currently pending, and should specifically address what constitutes
acceptable documentation of whether a patient does or does not have a dmective.
Alternatively, the HCFA could disseminate documentation guidelines through other
options:

�      A program memorandum from HCFA to State Medicaid Agencies and Medicare
       Fkal Intenmidaries specifying documentation requirements.
�      Medicaid Agencies and Medicare Intermediaries could provide a notifkation letter
       to all participating facilities on documentation requirements.
�      Participating facilities could be informed of Medicaid and Medicare contacts who
       can provide technical assistance on specillc documentation requirements.


                                              16
The HCFA should encourage the JCAHO to examine if the medical record for each
patient documents whether or not the patient has an advance directive. l’bis would
be in addition to the existing JCAHO review item regarding the presence of a copy of
the advance directive in the chart.

The HCFA, along with other appropriate departmental offices, should provide
leadership to develop a coordinated Department of Health and Human Service plan
for educating the general public on advance directives.

The education plan should 1) address the statutory requirement for the Secretary to lead a
national public information campaign on this topic, 2) incorporate a variety of means for
conveying the message in a cost-effective manner and 3) should involve all appropriate
DHHS components (The Social Security Administration (SSA), The public Health Service
(PHS), The Administmtion On Aging (AOA), The Administmtion For Children and
Families (ACF), The Assistant Secretary for Public Affairs (ASPA), etc.). Options for
developing a public education plan might include:

�      A public information campaign to increase understanding of advance directives
       which could include:
              Encouraging the development of Public Semite Announcements regardiig
              advance directives. The department could consider providing such
              announcements in conjunction with national organizations of health care
              providers or advocacy groups.
              Encomaging professional organizations to provide community education on
              the topic in conjunction with local health care facilities.
              Developing generic informational materials which could be provided to a
              variety of agencies.

�	     A coordinated effort involving all relevant agencies to provide uniform information
       on advance directives to individuals receiving program senices or benefits from
       the HCFA, SSA, PFIS, AOA, ACF, and the ASPA. Generic information, such as
       that included in the 1993 Me&are Handbook, could be used by other agencies in
       booklets, public materials and mass mailings.

�	     Encou@.ng coordinated State and private efforts to provide the public with a
       means of canying information on their person to alert physicians or facilities that
       they have an advance directive including:
              Investigating the possibility of a check-off box on driver’s licenses for
              individuals with advance directives, in conjunction with the State Motor
              Vehicle Departments.
              Discussing the development of bracelets or neck chains, similar to those
              available to people with speci.flc health conditions, to indk.ate an individual
              has an advance directive, with various groups whose purposes are to
              promote hedthlmedieal awareness and provide public information.




                                              17
SUMMARY OF AGENCY COMMENTS AND OIG RESPONSE

We solicited and received comments from the HCFA on the draft report. The complete
text of the HCFA comments are contained in Appendix C.

The HCFA concurred with our recommendation to provide leadership in educating the
public on advance directives, but suggested that the Assistant Secretary for Public Affairs
(ASPA) take the lead role in coordinating this effort. The HCFA also concurred with our
recommendation to work with JCAHO to include a spedlc review item to determine the
presence of documentation in the medical record that indicates whether or not a patient
has executed an advance directive. However, based on conversations with JCAHO, the
HCFA believes this item has been addressed in the accreditation process. The HCFA did
not concur with our recommendation to develop more specific guidance on chart
documentation, expressing concerns that such guidance might be overly prescriptive and
reduce provider flexibility.

While we appreciate HCFA’S concerns about overly prescriptive guidance, we continue to
believe that additional guidance is needed. Although we believe that HCFA’S interim
final rule will assist facilities in complying with the law, some questions still remain. We
found seveml situations in which it might be dfilcult to document whether or not patients
had executed an advance directive. For example, some patients’ mental status may not
allow them to provide the needed information upon admission and they may not be
accompanied by an individual who is knowledgeable about their personal affairs. In other
situations, State laws may lead to misunderstandings regarding the need to collect this
information. For example some hospitals, in States where an advance directive may not
be implemented during a woman’s pregnancy, do not even ask pregnant women whether
or not they have an advance directive when they are admitted. In still other
circumstances, nonstandard or emergency admissions may create problems in obtaining the
necessary information. For example, when individuals are admitted either after hours or
directly to a hospital unit they often bypass the process for obtaining information on
advance directives. We believe that more spe.ciflc guidance would help facilities handle
these situations and comply with the statute. This guidance need not be any more
prescriptive than the guidance already contained in the interim final rule, but would only
be more expansive in requiring that these subjects be addressed along with other topics.

Based upon HCFA’S comments regarding our recommendation on JCAHO reviews, we
have revised the wording of our recommendation. It was our intent to recommend that
JCAHO, in their review of a sample of medical recotis, examine the records for
documentation of whether or not patients have executed an advance directive, in addition
to their current review of whether an advance dtitive is present in the chart. As HCFA
states, currently the JCAHO reviews medical records to determine only if an advance
directive is pment in the chart, an item that is not a Federal requirement. In contrast, the
Federal statute requires that facilities “document... whether or not the individual has
executed an advance directive.” The absence of an advance directive may indicate a
number of possible scenarios. It may indicate that an individual does not wish to execute
an advance directive, or that an individual was not informed that s/he has a right to have


                                             18
an advance directive or that an individual has an advance directive but a copy has not been
placed in the medical record. In fact, our study shows that 40 percent of persons with
advance directives fell into this latter category. We believe that a speci.ilc documentation
requirement to indicate whether or not an advance directive was executed, as the statute
requires, would better ensure that medical records contain meaningfid information about a
patient’s decision concerning an advance directive. Such documentation would also better
ensure that a patient’s wishes are known to providers when making treatment decisions.

We support the HCFA’S suggestion that other appropriate depalmental members should
participate in the public education effort on advance directives. However, because
primary authority for the advance directive provisions lies with the HCFA, and they have
established relationships with the providers affected by the prevision, we feel the HCFA
should be responsible for negotiating with the suggested departmental components,
including ASPA, to decide who should coordinate and participate in this campaign. We
have revised our recommendation accordingly.

The HCFA also raised questions concerning:

       *      whether we had reviewed facilities’ compliance too early in the process;

       �	     whether the reason for lack of documentation in medical charts arose from
              lack of understanding of State laws, the patient’s condition, or the mode of
              admission, rather than confusion about what constitutes acceptable
              documentation; and

       o	     whether the low level of documentation we found is consistent with our
              statement that most facilities are complying with legislative requirements.

We recognize that we have reviewed facilities’ compliance with the statute 4 to 5 months
after the effective date, and 1 month after HCFA issued its dmft regulations. It was
indeed our intent to psesent information on facilities’ experiences and efforts as they f~st
began to implement the statute’s requirements. While it is logical to assume that
compliance increases with experience and knowledge on the part of providers, some of the
problems that arise in the early stages of implementation--if addressed quickly--can best
ensure smooth realization of new requirements over time. Additionally, we also =o@tie
that the HCFA issued Program Memomn& in October and December of 1991 to inform
all facilities and State Agencies of the requirement to implement the self determination
legislation by December 1, 1992.

Based on HCFA’S comments regarding the possibility that factors other than confusion
about acceptable documentation might have contributed to poor documentation, we have
refined our sub-fmdmg on this point.

Finally, we appreciate HCFA’S point about whether facilities are generally complying with
legislative requirements if they are not meeting documentation requirements. However,
we indicate that in our review, facilities were in fact complying with many aspects of the


                                              19
legislation, with the requirement regarding documen~tion being the most obvious
exception. It is for this reason that these issues were separated and our first two
recommendations are directed at strengthening guidance and technical assistance in this
area.




                                            20

                                 ENDNOTES

1. ~eadvmce       dkective provisions wemenactti as S~tions42O6md475l         of the
Omnibus Budget Reconciliation Act of 1990, Public Law 101-508. The original bill,
referred to as the Patient Self Determination Act, was introduced as S. 1766 by Senators
Danforth and Moynihan and H.R. 5067 by Congressman Sander Levin.

2.	 Levin, Sander, D. MI, Remarks in the House of Representatives on H.R. 5067:
Patient Self-Determinationj Thursday, Jun 28, 1990, CR page E-2190.

3. McCloskey, Elizabeth Leibold, “The Spirit of the PSDA”, Practicing fhe PSDA,
Hastings Center, Sept-Ott 1991, pg S14.

4.	 Rouse, Fenella, “Patients, Providers, and the PSDA”, Practicing the PSDA, Hastings
Center Report, Sept-Ott 1991, pg S2.

5. Rouse, Fenella, ibid.

6. McCloskey, Elizabeth, “The Patient SeLf-Determination Act”, Kennedy Institute of
Ethics Journal, I, no. 2, 1991, pg 163-69.


7. OBRA 1990, P.L. 101-508, section 4206, Conference agreement, pg. 129.

8. Rouse, Fenella, ibid.

9. Nancy Beth Cruzan, by her Parents and Co-Guardians, Lester L. Cruzan, et UX,
Petitioners V Di.nxtor, Mssouri Department of Health, et al., U.S. Supreme Court
Reports, 1990, 497 US -, 111 L Ed 2d 224, 110 S Ct-, no. 88-1503.

10. Legislative History, House Report No, 101-881, sec. 4122, pg. 88.

11. Bedell, Susanna E., and Delbanco, Thomas L., “Choices Abut Cardiopulmonary
Resuscitation in the Hospital, When Do Physicians Talk With Patients?”, Z7zeNew
England Journal of Medicine, 1984, Vol 310, no. 17, pgs. 1089-1093.

12. Jonsson, McNamee, and Carnpion, “ne ‘1)0 Not Resuscitate Order’ A Profde of Its
Changing Use,” Archives of Internal Medicine, Nov 1988 pg. 2373.

13. Bedell, Susanna E. et al., “Do Not Resuscitate Orders for Critically Ill Patients in the
Hospital, How Am They Used and What is Their Impact”, Joumal of the America
Medical Association, July 1986, vol. 256, no.2, pgs 233-237.

14. Bedell & Delbanco, ibid.

15. Jonsson, McNamee, & Campion, ibid.



                                             21
16. Bedell et al,, Ibid.

17. Uhlrnann, Richard F., et al., “Physicians and Spouses Predictions of Elderly Patients
Resuscitation Preferences”, Journal of Gerontology, 1988, Vol 43, no. 5, Ml 15-121.

18. Ouslander, Joseph, et al., “Health Care Decisions Among Elderly Long-term Care
Residents and Their Potential Proxies”, Archives of Internal Medicine, June 1989, vol
149, pgs 1367-1372.

19. Uhlmann, et al., Ibid.

20. Ouslander, et al., Ibid.

21. Emanuel, Linda and Barry, Michael, et al., “Advance Directives For Medical Care --
A Case For Greater Use”, The New Englund Journal of Medicine, V01324, N0. 13, pgs.
889-895,

22, l?ze Righl To Die: Times Mirror Center forthe Pwplemd       the press, 1990,

23. Emanuel, &Barry, ibid.

24. McCrary, Van and Bot.kin, Jeffrey, “Hospital Policy on Advance Directives, Do
Institutions Ask Patients About Living Wills?”, Joumai of the American Medical
Association, Nov. 1989, vol 262, no. 17, pgs 2411-2414.

25. McCrary, ibid.

26. McCrary, ibid.

27. Kamer, R. S., et al., “Effect of New York States Do Not Resuscitate Legislation On
III Hospital Cardiopulmonary Resuscitation Practice”, American Journal of Medicine,
1990, VO188, pgs. 108-111.

28.	 Tarnowski, K. J., et al., “Readability of Pediatric Biomedical Research Informed
Consent Forms”, Pediti”cs, 1990, VOI85, pgs. 58-62.

29.	 Berman H, Rose L., Choosing ~he&“ghtHealth are        Plan, Mount Vernon N.Y.1,
Consumers Union, 1990, 3.

30. Annas, George J., “The Health Care Proxy and the Living Will”, ?%e New EngZand
Journal of Medicine, April 1991, vol 324, no.1 17, pgs. 1210-1213.

 31. h Puma, John, et al., “Advance Directives on Admission, CliNcal Implications and
 Analysis of tie Patient Self-Detenni.nation Act of 1990”, Journal of the American Medical
 Association, July 1991, Vol 266, no. 3, pgs. 402-405.

 32. I& Puma, et al, ibid.



                                             22

33. La Puma, et al, ibid.

34. White, Margot and Fletcher, John, “The Patient Self Determination Act, On Balance,
More Help Than Hindrance (editorial)”, Journal of the American Medical Association,
July 1991, vol. 266, no. 3, pgs 410-412.

35. Puma, et al., “In Reply to Letter to the Editor”, Joumul of lhe American Medical
Association, Dec 1991, vol. 266, vol. 24, pg. 3424.

36. White & Fletcher, ibid.

37. While individual State Laws regarding advanced directives were not reviewed,
information prepared by Charles Sabatino of the Commission on Legal Problems of the
EJderly within the American Bar Association (September 1991), Amy Rosenberg, Editor
for the AAHA Leml Memo within the American Association of Homes for the Aging
(Summer 1991) and a drafl article for Clearing House Review (October 1991) by Charles
P. Sabatino and Vicki Gottlich, “Seeking Self Determination in the Patient Self-
Determination Act, ” were used as a guide to State Legislation on the topic.

38. For initial sample selection, States were grouped strictly on the basis of existing
legislation, although legal opinions and case law may also be considered when determining
the types of advance directives allowed in each State. Based on this selection approach,
one State, Nebraska, was excluded from the sample due to lack of legislation pertaining to
advanced directives at the time of the study. Two additional States, Alaska and Hawaii,
were excludcxl from the sample due to their distance and cost considemtions. Although
Maryland did have an Attorney Gened’s opinion recognizing the legal effectiveness of
the Durable Power of Attorney for Health Care, this opinion did not appear in Statute.
Thus, the DPAHC in Maryland was not considered for grouping purposes. Only the
living will was considered for grouping purposes. Washington has legislation mgard~g
both living wills and DPAHC, and thus was grouped based on this infomnation.
However, the legislation regarding DPAHC is very limited, allowing a named individual
to only provide informed consent for those treatment decisions previously specifkd by a
patient. Because both types of directives did appear in statute, Washington was grouped
based on the presence of both types of advance directives, despite the limits placed on the
DPAHC. Finally, at the time of the study design, Arizona was characterized as having
only a living will statute and was grouped based on this information. However, at time of
data collection it was noted that information was provided to patients on both living wills
and DPAHC. Upon further clarifkation from David Iandreth of the Auizona Medical
Association, it was determined that Arizona enacted a DPAHC statute during the summer
of 1992, and both living wills and DPAHt2 are now officially recognized. For purposes
 of this study, the sample States selected were categorized as follows: 1) Florida and
Washington, living will and DPAHC, 2) Maryland and Arizona, living will, and 3)
 Massachusetts and Michigan, DPAHC.

39. The legislative index developed for use in this study was based on information
provided in Public Law 101-508, section 4206, 1990 Budget Reconciliation, the draft
interim rule, referred to in this report as draft regulations dated Febmary 6, 1992, the


                                             23
Progxam Memorandum to Intermediaries dated December 1991, Program Memorandum to
Medicaid State Agencies dated October, 1991, and information on page 2 number 690 of
the Medicare and Medicaid Guide in the discussion of the issuance of the interim final
rule on advanced directives. All six of the items are specillcally mentioned in the
requirements and have been assigned the same weight of one. An additional item was
clearly mentioned in the requirements, the need to document in the patient’s medical
record whether or not they have a directive. Since data on this specific item was collected
and discussed at length in other sections of this report, it was not included in the
legislative index.

40. Since the design of this study and the collection of the data, an additional item has
been clariiled specifically as a requirement in complying with legislation on advanced
directives, This information was provided in the Medicare Hospital Manual, transmittal
number 641, date August 1992. The additional requirement is noted in parentheses on
page 134 of the Medicare Hospital Manual. The requirement specifies that facilities must
provide written information to the patients regarding any conscientious objection clause
the facility might have regarding implementing advanced directives, to the extent it is
allowed in State law. A conscientious objection clause refers to the ability of the hospital
or any agent of the hospital to n%use to implement a directive as a matter of conscience.

41. After the data collection for this inspection had been completed a hospital in
Michigan contacted the project leader about the chart documentation issue. The individual
calling was responsible for the Medical Records function in the hospital. She stated other
individuals with this responsibility in Michigan hospitals had expressed their concerns
about appropriate documentation in the charts of patients during dkcussions. She stated
one of the individuals involved in the discussion worked in a hospital that had been
included in the sample for this inspection, prompting her call. She wanted to express her
interest in seeking guidance on documentation. She was referred to individuals in her
regional office and HCFA. This indicates that other facilities have spe.ciflc concerns about
documentation issues.




                                              24
                          APPENDICES

Appendw A Regression Results

Appendti B Weightd and Unweighed Chafi DaU

Appendm C Full Text of Agency Comments
                              APPENDIX                  A

Regression analysis on the sample data was undertaken estimating two models. The
dependent variable was the percent of charts in each facility with clear documentation
stating whether or not the patient has an advance directive. Our regression analysis
detected five factors (independent vtiables] that were statistically signillcant:

       1) status as a for-profit organization,
       2) the lack of staff education or documentation of staff education on the topic,
       3) the provision of staff education after the Act was implemented,
       4) location in the State of Florida, and
       5) the provider was a nursing home.

There was no signitlcant effect of whether the provider was a hospital or home health
agency, location in one of the other sample States, or from having a higher score on the
administrative index. See Table 1 for regression results.

The effect of status as a for-profit organization was positive in both models, meaning they
were more likely to have a larger percentage of charts with documentation present when
compared to not-for-profit facilities. In the second equation where States were controlled,
this variable had the greatest impact. As many of the for-profit agencies were members
of a multiple facility system, this could indicate efficiencies in central development and
dissemination of information. This may allow the facilities in for-profit multi-facility
systems to have more standardized procedures and forms which could impact the
documentation in patient charts.

The effects of both lack of staff education or having no documentation that education was
provided and providing education after the Act became effective we= negative in both
models. This indicated that the facilities which provided education after the requirements
were implemented, had a lower percentage of charts with documentation present than dld
facilities which provided education before the implementation of the Act. The staff
education variables had the greatest effect of the signifkant factors in the f~ regression
model. This could indicate that the education did affect employee awareness and attention
to this new procedure, and reinforces the importance of the education requirement. It
could also indkate that facilities that document, document well.

In model two, variables were included to account for the effect of each State. When
controlling for each State in the sample, the effect of a facility located in the State of
Florida was negative and sigrdfkxmt when compared to the omitted category (which was
Washington). Location in any of the other sample States did not result in any signifkant
changes. This indicated that facilities in Florida had a lower percentage of charts with
documentation present. In addition, when controlling for States in the sample, the effect
of whether the provider was a nursing home became statistically signiflca.nt and negative.
This indicated &at nursing facilities were more likely to have a lower percentage of charts
 with documentation present when compared to hospitals, after looking at individual States.


                                             A -1

                                  Table 1

                                                                          1


R.EGRESSION RESULTS: Percent of Chalts in Facil@ With Document&”on
                                                           (Model 2)
                                 (.Model 1)
                                                         percent Chti
                                percent Chti
   Independent                                            Compliance
                                Compliance
   Variable                                               per Facility
                                per Facility


                                                             5.18
                                        8.77
    INDEX                                                   (5.67)
                                       (5.29)
                                                            12.75**
                                         8.82*
    For Profit                                              (4.28)
                                       (4.12)
                                                              4.49
                                         6.15
    Public                                                   (4.97)
                                        (5.13)
                                                             -9.05*
                                        -7.46
    Numi.ngFacility                                          (4.15)
                                        (4.37)
                                                             -3.82
                                        -2.84
    Home Health Agency                                        (2.77)
                                         (2.91)
                                                              -8.08*
                                       -10.85**
     Ed After Implemen@tion                                   (3.73)
                                         (3.83)
                                                            -11.35**
                                       -10.38*
     No Education                                              (3.85)
                                          (3.96)
                                                                 1.21
     A-izona                                                   (6.00)
                                                               -9.36*
     Florida                                                    (4.00)
                                                                -3.35
     Massachusetts                                              (2.81)
                                                                   .56
      Maryland                                                   (2.33)
                                                                  1.91
      Michigan                                                   (2.05)
                                                                 38.21
                                            24.78
      Constant
                                                              .366
                                            .220
      R Square                                                .238
                                            .135
      Adjusted R Square                                       2.84*”
                                            2.585*
      F =

       *	 =  sig. .05 ** = ‘ig. “01

       (stantid error presentd in Parentheses)





                                         A -3





                                                                          _—
                              APPENDIX                      B


     WEIGHTED AND UNWEIGHED             CHART DATA REPORTED IN THE TEXT



           STATUS OF DOCUMENTA~ON IN PATIENTS MEDICAL RECORD:

                              Sample/Weighted
Facility         Documented       Not         Documented,        “U~own”       Unable to
Type              in Chart     Documented      But Filed          noted in    Comprehend
                                in Chart       Elsewhere           Chart     Noted in Chart
n
 All TWeS     76 0%/80.5%      18.0%/14.0%        3.2%/1.7%      1.7%/3.3%     1.1%/.2%

Hospitals
              81.7%/86.2%      14.2%/9.4%             o          4.1%/4.4%         o

Nursing
              69.1%/46.0%      16.0%/25.5%    12.0%/26.7%              o      2.8%/1.8%
Facilities
Home
              74.7%/68.0%      23.8%/31.5%            o           .5%/.03%     1.0%/.5%
Health




                       PATIENTS WITH ADVANCE DIRECTIV=:
                                 Sample/Weighted*
 rype of Facility    Total Patients With Average
                           Advance         Age                Female             Male
                          Directives     (sample)
 AU Facilities                                                               35.9%42.7%
                        26.6%/21.2%          73           64.1%/55.5%

 Hospital
                        20.8%/18.2%          63           60.6%/48.3%        39.1%/49.5%

 Nursing                                                                     32.1%/40.2%
                        40.3%/47.7%          79           67.8%/58.9%
 Facility
 Home
                        22.4%/25.1%          76           62.1%/77.1%        37.8%122.3%
 Health
 --numbers may not sum to 100% due to md.ng sex and age mtormatlon
 1




                                             B-1
      APPENDIX           C
         AGENCY COMMENTS:
HEALTH CARE FINANCING ADmSTRA~ON




                  c-1




                                   —..
DATE

FROM
             u 30=
             Bruce C. Vladeck

                                   /b@c&;L -
             Administrator


SUBJECT      Office of Inspector    General (OIG) Draft Reports: “Early

             Implementation of     the Patient Self-Determination Act”

             (OEI-06-91-01130),     and “Facility and Patient Responses to the Patient

             Self-Determination     Act” (OEI-06-91-01131)


TO           Bryan B. Mitchell

             P~ncipal Deputy Inspector General



     We have reviewed the draft reports which present OIG findings on the extent of
institutional compliance with the advance directive provisions of the Omnibus
Budget Reconciliation Act of 1990 and patients’ understanding of their rights and
information provided to them in regard to this provision. Our specific comments are
attached for your consideration.

     Thank you for the opportunity to review and comment on these reports. Please
advise us if you agree with our position on the report’s recommendations at your
earliest convenience.

Attachment
        Comments of the Health Care Financirw Administration (HCFA) on
                 the Office of InsDector General (OIG) Draft Reuorts:
             Earlv Implementation of the Patient Self-Determination Act,
                                   (OEI-06-91-01130)1
                                           and

        Facilitv and Patient Rest)onses to~e Patient Self-Determination Act,

                                   ~OE1-06-91-01 131)



Recommendation    1

The HCFA should develop and issue specific regulato~ guidelines clarifying
acceptable documentation practices to meet requirements of the Patient Self-
Determination Act. Guidelines could be incorporated in the Final Regulations which
are currently pending and specifically address what constitutes acceptable
documentation of whether a patient does or does not have a directive. The HCFA
could further disseminate documentation guidelines in the manner used in
disseminating initial information on the r~quirements. For example:

    o	 Program memorandum from HCFA could be provided to State Medicaid
       agencies and State Medicare fiscal intermediaries on specific documentation
       requirements.

    o	 Medicaid agencies and Medicare intermediaries could provide a letter to all
       participating facilities on documentation requirements.

    o	 Participating facilities should be informed of Medicaid and Medicare contacts
       who can provide technical assistance on specific documentation requirements.


HCFA Resrmnse

HCFA nonconcurs. We do not believe that it is prudent to be overly perscriptive in
this area. Existing Medicare and Medicaid regulations include specific requirements
governing medical record documentation.       Hospital medical records standards
(42 CFR 48224) require the record to b~ accurate, legible, complete, and
authenticated.   If the records this study identified as ambiguous had been properly
authenticated, staff could easily have contacted the author for clarification. HCFA
regulations also include medical records requirements for nursing facilities
[42 _      483.75(1): Records must be in accordance with accepted professional
standards, complete, accurately documented, and readily accessible], and home health
agencies [42 CFR 484.48: Records must be in accordance with accepted professional
standards]. We believe these requi.ranents are sufficient to accommodate




                                                                   _   ——
Page 2

the advance directive requirement; therefore, we do not agree that specific regulatory
guidelines are needed. If these facilities are not meeting existing standards,
promulgation of new standards will not solve the problem.

The interim final regulation stated that there may be various ways to effectively obtain
the information needed to document the medical record, but did not address the
specifics of how this documentation should be done. The flexibility contained in our
regulation is appropriate because it encourages innovation and avoids potentially
unnecessa~ recordkeeping burden. We believe the focus should be on ensuring that
providers comply with the documentation requirement, instead of prescn%ing the
method for documenting the existence of an advance directive. Additionally, while
we understand that many providers will collect copies of advance directives, we do not
believe that the statute authorizes a regulatory requirement to do so.

The OIG study notes that the Joint Commission for Accreditation of Health
Organizations (JCAHO) requires that aiy advance directive be included in the
patient’s chart. We would also like to point out that the States also typically include
records requirements among conditions for licensure for health facilities. It appears
that the report did not review the content of State advanced directive laws. ~ese
laws may contain additional documentation requirements.


Recommendation     2

HCFA should encourage the JCAHC) to include a specific review item to determine
the presence of documentation of advance directives in each patient’s chart, in
addition to the existing review items regarding directives.

HCFA Resnonse

HCFA concurs to the extent that JCAHO agrees to any additional information
collection requirement.    It is a longstanding practice between HCFA and JCAHO to
coordinate efforts, where possible, on the rules and regulations issued by each.
We have had discussions with the JCAI-IC) regarding advance directive rules and the
documentation of such in the medical records, and it appears that they have           .
addressed this issue. Specifically, the JCAHO’S Accreditation Manual for Hospitals,
standard RI.1.1.3.2.3., states that “any advance directive(s) is in the patient’s medical
record . . .“ and the scoring process includes review of medical records.
Page 3

Recommendation     3 .

The HCFA should provide leadership in developing a coordinated Department          of
Health and Human Services plan for educating the general public on advance
directives.

HCFA Resuonse

HCFA concurs. We recognize that additional work remains in educating the general
public on advance directives and that HCI?A should play a key role in developing a
coordinated plan for carrying out that educational activity. Since this effort will
involve several agencies within the Department, we believe responsibility for this
action should rest with the Office of the Assistant Secretary for Public #dfairs
(OASPA), in order that tasks can be directed through the Department’s chain of
command. HCFA is nevertheless willing to provide staff support in working closely
with the OASPA in carrying out this actitity.

Technical Comments

We believe it is contradictory to assert that most facilities are complying with the
legislattie requirements, but at the same time find that only 26 percent of facilities
clearly and consistently document whether the patient has an advance directive.
Significantly, this report measured initial implementation efforts only 1 month after
the regulation was in place.

On page 5, the report notes that some of the samples “have poor precision” due to
the small number of samples, but concludes that “it is still felt that they represent a
reasonable estimate of initial implementation efforts.” Further explanation of this
conclusion would strengthen the repo~ particularly in light of the contradictory
findings in the Facilitv and Patient Resnonses report.

Most of the findings cited in the section entitled “Lack of Guidelines” of the Early
Imdementation of the Patient Self-Determination Act report (pages 10 and 11) do
not support the section’s cmtchsion. These findings. indicate that facilities failed to
document whether an advanced directive existed because personnel did not
understand State laws, because of a patient’s condition, or because the patient was
admitted after hours or through the emergency room - not due to confision
regarding what constitutes acceptable documentation. The Facili~ and patient
Resuonses report also indicates that the condition of the patient and the
circumstances of admission were the reasons given for lack of documentation.

Marginal notes have been added to your draft report.      A copy is attached.
